Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





PROVIDER ENROLLMENT, CHAIN 

  AND OWNERSHIP SYSTEM:

   EARLY IMPLEMENTATION 

       CHALLENGES





                    Daniel R. Levinson

                     Inspector General 


                       April 2007

                     OEI-07-05-00100

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                     S U M M A R Y                                                 



                  OBJECTIVE
                  To assess the early implementation of the Provider Enrollment, Chain
                  and Ownership System (PECOS) related to the timely processing of
                  Medicare provider enrollment applications and system access.


                  BACKGROUND
                  The PECOS is the repository of enrollment records for Medicare
                  providers, such as physicians, hospitals, and laboratories. It is the
                  primary source for provider enrollment information and serves as the
                  frontline defense to keep fraudulent providers from participating in
                  Medicare. The PECOS was expected to greatly reduce the amount of
                  time needed to process provider enrollment applications. When the
                  PECOS began operating in 2002, implementation problems caused
                  delays in processing enrollment applications.

                  The PECOS began initial operations with Part A contractors in July
                  2002; Part B contractors followed in November 2003. It contains
                  providers’ full names; unique identifiers, such as Social Security
                  numbers or tax identification (ID) numbers; and relationships between
                  providers (e.g., group practices and ownership). The system is not fully
                  populated with all Medicare providers, nor is it used to enroll all
                  provider types (e.g., durable medical equipment suppliers). Future
                  plans for the PECOS include housing each provider’s National Provider
                  Identifier and inclusion of enrollment information for durable medical
                  equipment suppliers and Medicaid providers.

                  The Office of Inspector General (OIG) collected records from contractors
                  of all provider enrollment applications exceeding the Centers for
                  Medicare & Medicaid Services (CMS) timeframes for July 2005. OIG
                  aggregated this data, selected stratified random samples of applications,
                  and contacted the contractor that owned each application to determine
                  the reason it was delayed. Between November 2005 and January 2006,
                  OIG conducted structured interviews with all contractors regarding
                  their experiences with PECOS, factors that commonly delay processing
                  of applications, PECOS training and guidance received, their
                  understanding of application-processing procedures, and their oversight
                  by CMS. OIG also conducted structured interviews with provider
                  enrollment and PECOS access staff in each CMS regional office and in
                  CMS’s central office.



OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   i
E X E C U T I V E                        S U            M M A R Y 




                   FINDINGS
                   Because of misinterpretation of CMS guidance, the majority of Part
                   A applications contractors reported as exceeding timeframes as of
                   July 31, 2005, had not actually exceeded timeframes. Sixty-six
                   percent of the Part A applications reported as exceeding the 99-percent
                   processing timeframe had not actually exceeded it. The
                   misclassification was due to the fact that contractors retained
                   applications awaiting tie-in notices in pending inventory or failed to
                   update the record status in the PECOS correctly. Eighteen percent of
                   Part A applications reported as exceeding timeframes were delayed due
                   to a backlog of applications waiting to be processed by one contractor.
                   The remaining Part A applications were delayed for a variety of other
                   reasons, including complex provider ownership structures requiring
                   extensive documentation, contractor staff errors, and difficulty
                   validating Social Security numbers.
                   Part B applications contractors reported as exceeding timeframes
                   as of July 31, 2005, were primarily the result of one contractor’s
                   backlog and providers’ failure to respond to requests for
                   information. One Part B contractor reported backlogs of applications
                   waiting to be processed that accounted for an estimated 52 percent of
                   Part B applications reported as exceeding timeframes. This contractor
                   did not provide a specific explanation for the backlog. Forty-one percent
                   of applications reported as exceeding processing timeframes were the
                   result of providers’ failure to respond to requests for missing or
                   corrected application information.
                   Over half of all contractors reported difficulty accessing the PECOS.
                   At the time of our review, 61 percent of contractors (25 of 41) reported
                   receiving frequent, intermittent notices from CMS asking them to use
                   PECOS only during certain time periods. In addition, over half of
                   contractors reported difficulty obtaining and/or recertifying user IDs
                   with PECOS access for their employees. Many contractors reported
                   that these problems caused them difficulty in meeting
                   application-processing timeframes.


                   CONCLUSION
                   Our review of the reasons for delayed application processing found that
                   many current Part A applications identified as late had been incorrectly
                   reported as late because of contractor staff misunderstanding of
                   application-processing policy. The applications that were delayed

 OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   ii
E X E C U T I V E                        S U            M M A R Y


                   because of workload backlogs were confined to two large contractors.
                   The changes to the application-processing guidelines implemented in
                   March 2006 specify that processing time does not begin until the
                   contractor receives a complete and correct application. This may reduce
                   the potential for workload backlogs in the future. Finally, over half of
                   all contractors reported difficulty accessing the PECOS.

                   Based on these findings, we offer to CMS the following suggestions for
                   improvement.

                           •	      CMS could conduct updated training for Part A contractor staff
                                   to ensure consistent understanding of application-processing
                                   policy, specifically regarding when application-processing time
                                   ends in relation to receipt of tie-in notices to maintain
                                   compliance with the revised “Program Integrity Manual.”

                           •	      CMS may also want to address issues with system access and
                                   user IDs that could lead to future delays in application
                                   processing.

                           •	      CMS may also want to determine the need for increased system
                                   capacity to ensure that periods of limited access to the PECOS
                                   will not reoccur as planned initiatives, such as the National
                                   Provider Identifier and enrollment of Medicaid providers, are
                                   implemented.

                           •	      Finally, CMS could revise the Enterprise User Administration
                                   Workflow process to prevent user ID requests and
                                   recertifications from being denied because of factors such as
                                   incorrect approver e-mail addresses, approvers being on leave, or
                                   approvers not acting upon e-mails.


                   AGENCY COMMENTS
                   CMS indicated in its comments that the information in the report will
                   assist in its ongoing management of the PECOS, but believes that the
                   startup issues noted have been resolved. With regard to training, CMS
                   stated that it has worked with Part A contractors and its own staff to
                   increase understanding of application processing timeframes,
                   specifically with regard to delayed receipt of tie-in notices. With regard
                   to system access and capacity, CMS stated that it has addressed this
                   issue by starting to transition PECOS from a DB2 to an Oracle
                   environment to limit the interference that other CMS applications have



 OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   iii
E X E C U T I V E                        S U            M M A R Y


                   on PECOS. Finally, CMS stated that it will consider more effective
                   ways to improve the Enterprise User Administration Workflow process.




 OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                   Part A applications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                   Part B applications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                   Difficulty accessing the PECOS . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A:	 Flowchart of the EUA Workflow Process for Approving a 

                       CMS Computer Systems User ID. . . . . . . . . . . . . . . . . . . . . . . 15 


                   B:	 Sample Sizes, Projections, and Confidence Intervals for

                       Reasons of Delay in Application Processing . . . . . . . . . . . . . . 16 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

Δ   I N T R O D U C T I O N                                                       



                  OBJECTIVE
                  To assess the early implementation of the Provider Enrollment, Chain
                  and Ownership System (PECOS) related to the timely processing of
                  Medicare provider enrollment applications and system access.


                  BACKGROUND
                  The PECOS is the repository of enrollment records for Medicare
                  providers, such as physicians, hospitals, and laboratories. It is the
                  primary source for provider enrollment information and serves as the
                  frontline defense to prevent fraudulent providers from participating in
                  Medicare. The PECOS was expected to greatly reduce the amount of
                  time needed to process provider enrollment applications. When the
                  PECOS began operating in 2002, implementation problems caused
                  delays in processing enrollment applications. These delays attracted
                  the attention of Congress and the American Medical Association (AMA).
                  AMA concluded that the PECOS negatively impacted contractor
                  workloads, resulting in delays to both provider enrollment and claims
                  payment.1 We conducted this study, in part, because of concerns over
                  reported delays.

                  The PECOS began initial operations with Part A contractors in July
                  2002; Part B contractors followed in November 2003. It contains
                  providers’ full names; unique identifiers, such as Social Security
                  numbers or tax identification (ID) numbers; and relationships between
                  providers (e.g., group practices and ownership). The system is not fully
                  populated with all Medicare providers—contractors are required to
                  create PECOS records as providers submit initial applications or
                  changes to existing information. The PECOS is not yet used to enroll
                  all provider types (e.g., durable medical equipment suppliers).
                  Therefore, existing providers who have not had cause to submit changes
                  to their information do not have PECOS records yet. Future plans for
                  the PECOS include housing each provider’s National Provider Identifier
                  and inclusion of enrollment information for durable medical equipment
                  suppliers and Medicaid providers.




                    1 “Centers for Medicare & Medicaid Services Working to Improve Provider Enrollment
                  Process,” Medlearn Matters Number SE0417, May 4, 2004.



OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   1
I N T R O D        U C T             I O N


                    PECOS’ Role in the Provider Enrollment Process
                    The primary purposes of the PECOS are to:

                                •	          collect information for an applying provider/supplier and
                                            record the associations between the applicant and those who
                                            have an ownership or control interest in the entity;

                                •	          permit informed enrollment decisions based on past and
                                            present business history and any reported exclusions,
                                            sanctions, and felonious behavior at their location or in
                                            multiple contractor jurisdictions; and

                                •	          ensure that claim payments are made to the correct payee.2
                    To initiate an enrollment action, providers complete an application
                    (Form CMS 855) and submit it to the appropriate contractor. There are
                    three types of enrollment actions: (1) initial enrollment,
                    (2) reassignment of provider’s benefits, and (3) change of information.
                    Changes of information include changes of ownership from a seller and
                    changes of ownership from a buyer. Upon receipt of any of these
                    applications, contractor staff verify that the information is complete and
                    correct and enter the data into the PECOS.
                    Contractors verify numerous pieces of information during the provider
                    enrollment process, including licensing; address; absence from the Office
                    of Inspector General (OIG) exclusions list; and, for institutional
                    providers, survey and certification information. In addition, contractors
                    follow up with providers to resolve any missing or incorrect information
                    (e.g., missing signature, incorrect date), which sometimes adds weeks or
                    months to processing time. For institutional providers (e.g., hospitals,
                    skilled nursing facilities), some types of applications require survey and
                    certification by a State agency. After verifying the information in these
                    applications, the contractor sends the application to the appropriate
                    State agency for survey and certification. The Centers for Medicare
                    & Medicaid Services (CMS) requires that a contractor’s processing time
                    for this type of application end when the contractor sends its
                    recommendation for approval or denial to the State agency, meaning
                    that the application should no longer be listed as pending.3 After the


                        2 66 Federal Register 51961 (2001).
                        3 “Medicare Program Integrity Manual,” Pub. No. 100-08, chapter 10, section 2.3(D).

                    During the review period, this requirement was located in an earlier version of chapter 10,
                    section 15, effective March 26, 2004 (prior to Rev. 150, effective July 30, 2006).



 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   2
I N T R O D        U C T             I O N


                    State agency completes its certification of a provider and advises CMS’s
                    regional office of the results, CMS’s regional office completes a notice to
                    indicate its approval of the provider, called a tie-in notice, and submits
                    this notice to the contractor to complete the enrollment process.

                    Contractor Responsibilities. According to CMS requirements applicable
                    during the review period, contractors were required to process
                    90 percent of the applications received within 45 or 60 days (depending
                    on application type) and 99 percent of the applications received within
                    60 or 120 days (depending on application type). Because CMS allowed
                    processing times for 1 percent of applications to exceed either 60 or
                    120 days, having applications that exceed these timeframes does not
                    necessarily mean contractors were noncompliant. Table 1 gives
                    required timeframes for processing various types of applications during
                    the review period, as described in the “Medicare Program Integrity
                                    4
                    Manual” (PIM).

                             Table 1: Contractors’ Timeframes for Processing Provider
                             Enrollment Applications by Type*

                                                                                                             Processing Timeframes

                                         Application Type                                     90 percent of                               99 percent of
                                                                                              Applications                                Applications
                                                                                            Processed Within                            Processed Within

                             Initial Enrollment                                                      60 days                                    120 days

                             Reassignment of Benefits                                                45 days                                     60 days

                             Change of Information                                                   45 days                                     60 days

                             Change of Ownership – Seller                                            45 days                                     60 days

                             Change of Ownership – Buyer                                             60 days                                    120 days

                             Source: PIM, Pub. No. 100-08, chapter 10, section 15, effective March 26, 2004.
                             *We received information from CMS officials regarding the processing timeframes for
                             changes of ownership for sellers and buyers. The version of the PIM in effect during
                             the review period did not specify the timeframes for these application types. The
                             current version of the manual gives processing timeframes for these application types
                             in chapter 10, sections 2.1 and 2.2.




                       4 At the time of our review, the PIM was being revised to reflect changes in

                    application-processing policy. As of July 30, 2006, 80 percent of applications for initial
                    enrollment and change of ownership from a buyer must be processed within 60 days, and
                    80 percent of applications for change of information, reassignment of benefits, and change of
                    ownership from a seller must be processed within 45 days. Processing timeframes currently
                    in effect are located in chapter 10, section 2 of the manual, Rev. 150.



 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   3
I N T R O D        U C T             I O N


                    User IDs. To obtain a user identification (user ID) and password to
                    access the PECOS, each potential user (requester) at a contractor
                    submits an Application for Access to CMS Computer Systems (CMS
                    Form 20037) to the appropriate CMS regional office. This application is
                    entered by CMS regional office staff into a CMS tracking system, called
                    Enterprise User Administration (EUA) Workflow. The request is then
                    routed to two predefined approvers (one is the requester’s manager, and
                    one is a CMS employee); EUA Workflow contains information regarding
                    the assigned approvers for each contractor. These approvers receive
                    system-generated e-mails notifying them that a request is awaiting
                    approval. If approvers do not act on the request within 4 days, they
                    receive a second e-mail notice; if approvers still do not act within an
                    additional 4 days, they receive a third notice. Four days after the third
                    notice, if the request has not received both approvals, the system closes
                    the request and notifies the requester. If the request receives two
                    approvals, it is routed to a final CMS approver, who grants access to the
                    PECOS. Once this final approval is complete, the requester receives an
                    e-mail notification that a user ID has been assigned and access has been
                    granted. See Appendix A for a flowchart of this process.

                    All PECOS users must recertify their user IDs annually. The
                    recertification process is similar to the user ID assignment process. The
                    PECOS users receive system-generated e-mails 45 days before their
                    user IDs expire, advising them to recertify and providing a link to the
                    EUA Workflow. Users log into the EUA Workflow to verify personal
                    information and needed applications and to complete privacy and
                    security training. Once these tasks are completed, the recertification
                    request enters an approval process similar to that required for initial
                    applications; however, the third approval is not necessary for
                    recertification.


                    METHODOLOGY
                    To assess implementation of the PECOS regarding timely processing of
                    Medicare provider enrollment applications and system access, we
                    collected information from three sources: contractors, CMS regional
                    offices, and CMS’s central office. We explored the possibility of
                    collecting pending application information from the PECOS directly, but
                    the PECOS was unable to produce the necessary information at that




 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   4
I N T R O D        U C T             I O N


                    time.5 Therefore, we collected data on the number of applications
                    pending as of July 31, 2005, from the contractors. From these, we
                    selected a sample of applications that exceeded 60 or 120 days,
                    depending on application type, and asked contractors why the
                    processing of the sampled applications had been delayed. We also
                    conducted structured interviews with provider enrollment staff from
                    each of the contractors, CMS regional offices, and CMS’s central office.
                    Part A Sample. From the contractors administering the 32 Part A
                    contracts, we requested data on the number of applications pending as
                    of July 31, 2005, including information on the age of the applications.
                    We aggregated these data to create a national data set of Part A
                    pending provider enrollment applications. Part A contractors reported
                    2,590 pending applications, 476 of which were pending longer than
                    either 60 or 120 days, depending on the type of application. Table
                    2 displays the pending applications reported by Part A contractors.


                             Table 2: Part A Contractors' Pending Applications as of July 31,
                             2005

                                                                                                                 Pending Applications Exceeding
                             Application Types                                      Total Pending                60 or 120 Days
                                                                                                                 Number                         Percentage
                             Initial Applications                                                         522                           150                    28.74%

                             Changes of Information                                                    1,583                            140                      8.84%

                             Change of Ownership - Seller                                                 191                             97                   50.79%

                             Change of Ownership - Buyer                                                  294                             89                   30.27%

                             Total                                                                     2,590                            476                    18.38%
                             Source: OIG analysis of contractor pending application information, 2005.

                    We limited the Part A population to the 476 applications that exceeded
                    the timeframe for the appropriate application type (120 days for initial
                    enrollments and changes of ownership from buyers and 60 days for
                    changes of information and changes of ownership from sellers) and
                    asked the contractors to provide identifying information on each of the
                    476 applications. We selected a stratified random sample from the
                    476 applications to ensure that all application types and contractors
                    were represented.


                       5 Functionality to produce pending application information was added to the PECOS
                    after the period of our review.



 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S      5
I N T R O D        U C T             I O N


                    The strata are illustrated in Table 3. One large Part A contractor
                    accounted for the majority of the change of ownership from buyer and
                    change of ownership from seller application types. For these application
                    types, we created substrata to ensure that applications were selected
                    from a variety of contractors. Substratum A represents the contractor
                    holding the majority of the change of ownership applications.

                                        Table 3: Part A Sample and Populations

                                        Application Type                                            Sample Size                          Population

                                        Initial Enrollments                                                                    60                     150

                                        Change of Information                                                                  75                     140

                                                                                                       Substratum A 35                                  84
                                        Change of Ownership – Seller
                                                                                                       Substratum B 13                                  13
                                                                                                       Substratum A 40                                  77
                                        Change of Ownership – Buyer
                                                                                                       Substratum B 12                                  12

                                        Total                                                                                235                      476
                                        Source: OIG analysis of contractor pending application information,
                                        2005.


                    Part B Sample. From the contractors administering the 29 Part B
                    contracts, we requested data on the number of applications pending as
                    of July 31, 2005, including information on the age of the applications.
                    We aggregated these data to create a national data set of Part B
                    pending provider enrollment applications. Part B contractors reported
                    48,477 pending applications, 673 of which were pending longer than
                    60 or 120 days, depending on the type of application. Table 4 displays
                    the pending applications reported by Part B contractors.


                             Table 4: Part B Contractors' Pending Applications as of
                             July 31, 2005
                                                                                                           Pending Applications
                             Application Types                                Total Pending                Exceeding 60 or 120 Days
                                                                                                           Number      Percentage
                             Initial Applications                                             31,873                      120                       0.38%

                             Changes of Information                                             8,434                     424                       5.03%

                             Reassignment of Benefits                                           8,170                     129                       1.58%

                             Total                                                            48,477                      673                       1.39%
                             Source: OIG analysis of contractor pending application information, 2005.




 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   6
I N T R O D        U C T             I O N


                    We limited the Part B population to the 673 applications that exceeded
                    the timeframe for the appropriate application type (120 days for initial
                    enrollments and 60 days for changes of information and reassignment of
                    benefits) and asked the contractors to provide us with identifying
                    information on each of the 673 applications. We selected a stratified
                    random sample from the 673 applications to ensure that all application
                    types and contractors were represented.
                    The strata are illustrated in Table 5. One large Part B contractor held
                    the majority of the change of information application type. For this
                    application type, we created substrata to ensure that applications were
                    selected from a variety of contractors; substratum A represents the
                    contractor holding the majority of the change of information
                    applications. We reduced our sample size from 190 to 185 because, as a
                    result of contractor errors, 5 applications that contractors provided did
                    not exceed the timeframe for the application type.


                             Table 5: Part B Sample and Populations

                             Application Type                                Sample Size                        Adjusted Sample                      Population

                             Initial Enrollments                                                          60                                   58                     120

                                                                                   Substratum A 40                                             40                     311
                             Change of Information
                                                                                   Substratum B 30                                             28                     113

                             Reassignment of Benefits                                                     60                                   59                     129

                             Total                                                                      190                                  185                      673
                             Source: OIG analysis of contractor pending application information, 2005.

                    Contractor Interviews. Between November 2005 and January 2006, we
                    conducted structured interviews with the 41 contractors that held the
                    32 Part A and 29 Part B contracts regarding their experiences with the
                    PECOS, the factors that commonly delayed processing of applications,
                    the guidance they received, and their understanding of application-
                    processing procedures.

                    CMS Interviews. We conducted structured interviews in January and
                    February 2006 with staff responsible for producing tie-in notices and
                    staff involved in granting access to the PECOS in each CMS regional
                    office and with CMS central office staff responsible for provider
                    enrollment and access to the PECOS.




 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S         7
I N T R O D        U C T             I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-05-00100    P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   8
   Δ       F I N D I N G S 


                                                                  Sixty-six percent of the Part A
Because of misinterpretation of CMS guidance, the                 applications reported as exceeding
majority of Part A applications contractors reported              the 99-percent processing
  as exceeding timeframes as of July 31, 2005, had                timeframe had not actually
                   not actually exceeded timeframes               exceeded it. The misclassification
                                                                  was due to the fact that
                         contractors retained applications awaiting tie-in notices in pending
                         inventory or failed to update the record status in the PECOS correctly.
                         For applications that require tie-in notices, the PIM states that a
                         contractor’s processing time ends when the contractor sends its
                         recommendation for approval or denial to the State agency. Therefore,
                         contractors should not have categorized these applications as pending.
                         Our structured interviews revealed that staff from eight contractors
                         incorrectly believed that processing time included time spent waiting for
                         tie-in notices. In addition, contractors reported incorrectly categorized
                         applications as a result of failing to update the PECOS. For example,
                         some contractors failed to change the status of applications to “closed”
                         when they were complete. Contractors’ failure to apply the various
                         record statuses correctly caused applications to be categorized as
                         exceeding processing timeframes when, in fact, they had not.

                         Eighteen percent of Part A applications reported as exceeding
                         timeframes were delayed due to a backlog of applications waiting to be
                         processed by one contractor. Staff from this contractor explained that
                         the backlog was due to an increase in Federally Qualified Health Center
                         enrollments and that they were unable to add staff quickly enough to
                         accommodate the additional workload.

                         The remaining Part A applications were delayed for a variety of other
                         reasons, including complex provider ownership structures requiring
                         extensive documentation, contractor staff errors, and difficulty
                         validating Social Security numbers. Appendix B provides the number of
                         sampled applications, projections, and confidence intervals for each
                         cause of delay.




       OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   9
F   I N D I N G        S            



                                                                                                          One Part B contractor reported
    Part B applications contractors reported as                                                           backlogs of applications waiting to
exceeding timeframes as of July 31, 2005, were                                                            be processed that accounted for an
                                                                                                          estimated 52 percent of Part B
primarily the result of one contractor’s backlog
                                                                                                          applications reported as exceeding
            and providers’ failure to respond to
                                                                                                          timeframes. This contractor did
                         requests for information                                                         not provide a specific explanation
                                                                                                          for the backlog.

                      Forty-one percent of applications reported as exceeding processing
                      timeframes were the result of providers’ failure to respond to requests
                      for missing or corrected application information. The version of the PIM
                      in effect during the review period provided that in “. . . situations where
                      [contractors] have made at least three attempts to contact the applicant
                      for information, and the applicant is not responding to those requests,
                      [contractors should] close the application after 120 days.” The PIM
                      further provided, “Anytime the information is received during the
                      120-day cycle, process [the application] even if the delay in processing
                      was not caused by the contractor. Therefore, if the applicant waited
                      until the 99th day to send the information, the contractor is required to
                      process it . . . .” Therefore, contractors should process applications
                      anytime information is received, even if doing so will make the
                      processing of the application take more than 120 days.

                      However, contractors inconsistently interpreted the PIM guidance
                      concerning when to close an application for provider nonresponse. Some
                      contractors believed that the status of applications could be changed to
                      “closed” 7 days after the third contact attempt; others believed that
                      applications were no longer counted in pending inventory after three
                      contact attempts, but that the status of the applications could not be
                      changed to “closed” until 120 days had elapsed; still others believed that
                      all applications had to be held open for 120 days regardless of whether
                      the provider responded to follow-up requests. Additionally, some
                      contractors indicated that they would keep an application open longer
                      than 120 days if the provider showed cooperation with requests, in
                      accordance with the PIM guidance; others would not, closing all
                      applications at 120 days regardless of whether the provider had been
                      cooperative. Misinterpretation of when to close applications for provider
                      nonresponse could cause inconsistent reporting of pending inventory.
                      Therefore, some applications that should have been closed may have
                      been incorrectly reported as exceeding timeframes and others that
                      should have been left open may have been incorrectly closed.

    OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   10
F    I N D I N G        S


                       CMS staff indicated that, in March 2006, the application-processing
                       guidelines changed to specify that processing time for each application
                       does not begin until the contractor receives a complete and correct
                       application. We interviewed contractors in November 2005 through
                       January 2006. Therefore, the policy change did not affect the pending
                       applications we discussed with contractors, meaning that we could not
                       determine whether this change eliminated pending applications due to
                       provider nonresponse.

                       The remaining Part B applications did not meet established timeframes
                       for a variety of other reasons, including contractor staff errors, difficulty
                       validating Social Security numbers, problems with transferring records
                       to the claims payment system, and problems with conducting visits to
                       the providers’ locations. Appendix B provides the number of sampled
                       applications, projections, and confidence intervals for each cause of
                       delay.



                                                              We conducted our interviews with
    Over half of all contractors reported difficulty          contractors between 4 and
                             accessing the PECOS              6 months after the date of our
                       pending application information (July 2005). In these interviews,
                       contractors discussed their current and past experiences, which
                       included difficulty accessing the PECOS at the time of our interviews.
                       Sixty-one percent of contractors (25 of 41) volunteered that they
                       received frequent, intermittent notices from CMS, asking them to use
                       the PECOS only during certain time periods. For example, CMS
                       advised contractors in the eastern time zone to work in the PECOS only
                       from 6 a.m. to 12 p.m. During these periods, the system limited access
                                                                                    6
                       to the PECOS to 150 simultaneous users across the Nation.
                       Thirty-one percent of contractors (13 of 41) reported that limited access
                       to the PECOS compromised their ability to meet timeliness
                       requirements. One contractor with more than 50 PECOS users
                       indicated that its need for access was 4 times greater than allowed
                       during these periods. One contractor with over 100 PECOS users tried


                         6 We determined that there were more than 1,400 registered users of the PECOS as of
                       May 2006. CMS noted in their comments to the draft report that peak concurrent usage
                       equates to 270-300 users. We have no reason to believe that the number of users changed
                       substantially between the time of our interviews (November 2005–January 2006) and May
                       2006.



     OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   11
F   I N D I N G 
S


                      staggering work hours (beginning at 4 a.m.), but found that these efforts
                      did not alleviate the problem. As one contractor staff person described
                      the problem, “[We] have three drawers of files that need to be keyed and
                      are aging,” but because of the limited access to the PECOS, the
                      contractor’s staff were unable to complete this work.

                      CMS staff confirmed that periods of limited access to the PECOS
                      occurred, explaining that implementation of Medicare Part D was the
                      cause. Server capacity usually devoted to the PECOS had to be diverted
                      to process Part D enrollments. The access problems had abated as of
                      January 2006, according to CMS staff, and no significant downtime
                      occurred between January and March 2006.

                      Given the initiatives planned for CMS computer systems in general,
                      such as implementing the National Provider Identifier, and, for the
                      PECOS specifically, such as enrollment of durable medical equipment
                      suppliers and Medicaid providers, the system may again be overtaxed if
                      CMS does not adequately plan for future needs.
                      Half of contractors experienced difficulties obtaining and recertifying user
                      IDs
                      Fifty-one percent of contractors (21 of 41) reported that they had
                      experienced difficulty obtaining or recertifying user IDs for their
                      employees. According to contractor staff, new users waited up to
                      12 weeks after submitting applications for their user IDs, delaying them
                      from beginning work. Contractors also reported difficulty with annual
                      recertifications of user IDs. As one contractor staff person noted, “[We]
                      get an e-mail saying an employee needs to revalidate about 30 days
                      before revocation [of the user ID] occurs, and [we] get the forms going as
                      soon as possible, but [our] employees still end up getting revoked.”
                      Requests for new user IDs and recertifications of existing user IDs must
                      be processed through a series of approvers; requests are often left
                      unprocessed, according to contractor and CMS regional office staff.
                      CMS central office staff verified these concerns. Problems occur in the
                      process when the e-mail address for an approver is incorrect, when an
                      approver is on leave, or when an approver does not act upon the e-mail
                      notification. When approvers do not respond in time, the request for a
                      new user ID is closed or, in case of a recertification, the user ID is
                      revoked. Either of these two events can cause contractor employees to
                      have to start the user ID process over, thereby delaying their access to
                      the PECOS and losing application-processing time.

                      .

    OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   12
Δ   C O N C L U S I O N                                             





                  Our review of the reasons for delayed application processing found that
                  many current Part A applications identified as late had been incorrectly
                  reported as late because of contractor staff misunderstanding of
                  application-processing policy. The applications that were delayed
                  because of workload backlogs were confined to two large contractors.
                  The changes to the application-processing guidelines implemented in
                  March 2006 specify that processing time does not begin until the
                  contractor receives a complete and correct application. This may reduce
                  the potential for workload backlogs in the future. Finally, over half of
                  all contractors reported difficulty accessing the PECOS.

                  Based on these findings, we offer to CMS the following suggestions for
                  improvement.

                          •	      CMS could conduct updated training for Part A contractor staff
                                  to ensure consistent understanding of application-processing
                                  policy, specifically regarding when application-processing time
                                  ends in relation to receipt of tie-in notices to maintain
                                  compliance with the revised PIM.

                          •	      CMS may also want to address issues with system access and
                                  user IDs that could lead to future delays in application
                                  processing.

                          •	      CMS may also want to determine the need for increased system
                                  capacity to ensure that periods of limited access to the PECOS
                                  will not reoccur as planned initiatives, such as National Provider
                                  Identifier and enrollment of Medicaid providers, are
                                  implemented.

                          •	      Finally, CMS could revise the EUA Workflow process to prevent
                                  user ID requests and recertifications from being denied because
                                  of factors such as incorrect approver e-mail addresses, approvers
                                  being on leave, or approvers not acting upon e-mails.


                  AGENCY COMMENTS
                  CMS indicated in its comments that the information in the report will
                  assist in its ongoing management of the PECOS, but believes that the
                  startup issues noted have been resolved. With regard to training, CMS
                  stated that it has worked with Part A contractors and its own staff to

OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   13
C O   N C L        U S I O             N


                     increase understanding of application processing timeframes,
                     specifically with regard to delayed receipt of tie-in notices. With regard
                     to system access and capacity, CMS stated that it has addressed this
                     issue by starting to transition PECOS from a DB2 to an Oracle
                     environment to limit the interference that other CMS applications have
                     on PECOS. Finally, CMS stated it will consider more effective ways to
                     improve the EUA Workflow process. We made technical corrections
                     based on CMS’s comments, as appropriate. For the full text of CMS’s
                     comments, see Appendix C.




 OEI-07-05-00100     P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   14
 Δ           A P P E N D I X                                      A

Flowchart of the EUA Workflow Process for Approving a CMS Computer
Systems User ID

                                                                   Form CMS 20037
                                                                  submitted to regional
                                                                         office



             Request for approval is                                Form CMS 20037                                          Request for approval is
                 routed to CMS                                       entered in EUA                                          routed to contractor
               approver by e-mail                                   Workflow system                                           approver by e-mail




                                                                                                                                                      Request is sent to
 Request is closed and         Denied within 4 days                        Request                   Approved within 4 days                        final approver at CMS
  requester is notified                                                      is:
                                                                                                                                                        central office


                                          Request is not processed
                                          within 4 days
                                                                                                                                                     Requester is notified
                                                                                                                                                     of assigned user ID
                                                                     Second e-mail
                                                                   notification is sent




                                                                                                                                                      Request is sent to
 Request is closed and        Denied within 4 days                         Request                    Approved within 4 days                       final approver at CMS
  requester is notified                                                      is:
                                                                                                                                                        central office


                                          Request is not processed
                                          within 4 days
                                                                                                                                                     Requester is notified
                                                                                                                                                     of assigned user ID
                                                                      Third e-mail
                                                                   notification is sent




                            Denied within 4 days                                                     Approved within 4 days                             Request is sent to
                                                                           Request
                                                                                                                                                     final approver at CMS
Request is closed and                                                        is:
                                                                                                                                                          central office
 requester is notified

                              Request is not processed
                              within 4 days
                                                                                                                                                       Requester is notified
                                                                                                                                                       of assigned user ID


       OEI-07-05-00100           P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   15
Δ            A P P E N D I X                                          B


   Sample Sizes, Projections, and Confidence Intervals for Reasons of Delay in
   Application Processing

Reasons Why Part A Applications Were Reported as Exceeding Processing Timeframes

                                                       Number of Applications in                             Point                    95-Percent Confidence
                  Reason*
                                                               Sample                                       Estimate                         Interval


Contractor misunderstanding of
                                                                           139                                  66%                           63.5% - 68.3%
application processing policy

Backlogs in contractor inventory                                            48                                  18%                           15.8% - 20.3%
Other (e.g., complex ownership
structures, contractor staff errors,
                                                                            48                                                    Not projected
difficulty validating Social Security
numbers)
Total                                                                      235
*Some applications were delayed for multiple reasons. Applications that were delayed because of (1) contractor
misunderstanding and any other reason, or (2) contractor backlog and any other reason were counted in either the
misunderstanding or backlog category, but not in both categories.
Source: OIG analysis of contractor reasons for delay, 2005.




Reasons Why Part B Applications Were Reported as Exceeding Processing Timeframes
                                                       Number of Applications in                             Point                    95-Percent Confidence
                  Reason*
                                                               Sample                                       Estimate                         Interval
Provider failure to respond to requests for
                                                                            99                                  41%                           36.6% - 44.5%
information timely
Backlogs in contractor inventory                                            65                                  52%                           47.6% - 55.8%

Other (e.g., difficulty conducting site visit,
difficulty transferring information to claims                               21                                                    Not projected
payment system)

Total                                                                      185
*Some applications were delayed for multiple reasons. Applications that were delayed due to (1) provider
nonresponse and any other reason, or (2) contractor backlog and any other reason were counted in either the provider
nonresponse or backlog category, but not both categories.
Source: OIG analysis of contractor reasons for delay, 2005.




    OEI-07-05-00100            P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   16
Δ   A P P E N D I X                                C

Agency Comments




OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   17
A   P   P E N D       I X            C            





    OEI-07-05-00100   P R O V I D E R E N R O L L M E N T, C H A I N   AND   O W N E R S H I P S Y S T E M : E A R LY I M P L E M E N T A T I O N C H A L L E N G E S   18
.. A CK NOW LED G MEN T 5

                    This report was prepared under the direction of               Brian T. Pattison,
                    Regional Inspector General for Evaluation and Inspections in the
                    Kansas City regional offce, and Gina C. Maree, Deputy Regional
                    Inspector General.

                    Tricia Fields ;served as the team leader for this study. Other principal
                    Offce of Evaluation and Inspections staff from the Kansas City regional
                    offce who contributed to the report include Michael Barrett and
                    Michala Walker; central offce staff               who contributed include C. Scott
                    Manley and Barbara Tedesco.




 OEI.07.05.00100   PROVIOER ENROLLMENT, CHAIN AND OWNERSHIP SYSTEM: EARLY IMPLEMENTATION CHALLENGES
                                                                                                       19
